HHS/OIG, Audit -"Review of Outpatient Cardiac Rehabilitation Services - Morton Plant Hospital,"(A-04-03-01006)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Review of Outpatient Cardiac Rehabilitation Services - Morton Plant Hospital," (A-04-03-01006)
January 5, 2004
Complete
Text of Report is available in PDF format (528 KB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this review was to determine whether Medicare properly reimbursed Morton Plant Hospital for outpatient
cardiac rehabilitation services.  We found no documentation to support physician supervision during exercise sessions.  In
addition, we did not find sufficient evidence in the medical records to indicate that the cardiac rehabilitation services
were provided incident to the medical directors professional services.  Also, from our claims review for 30 sampled
beneficiaries who received outpatient cardiac rehabilitation services during calendar year 2001, we determined that the
hospital received Medicare payments of $4,426 for services provided to beneficiaries where medical documentation may not
have supported Medicare covered diagnoses and for services not otherwise allowable. We recommended correction of internal
control weaknesses and other procedural improvements.